Supreme Court, U.S.
FILED

WAIVER

JUN 1 1 2021
OFFICE OF THE CLERK

Supreme Court of the United States
No. 20-7993
Eugene Korte
(Petitioner)

v.

California, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):
Comcast Corporation

Please check the appropriate box:
0

I am a member of the Bai of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

i31

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

SignatUre
June 10, 2021

Date:

Melanie Barnes

(Type or print) Name

0 Mr.

NI Mrs.

0 Miss

Comcast Cable Corporate Counsel

Firm

1701 JFK Boulevard

Address
City & State
Phone

0 Ms.

Philadelphia, Pennsylvania

267 275 1882

Zip
-

Email

19013

melanie_barnes@comcast.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

Eugene Korte, pro se claimant

RECEIVED
JUN 1 5 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

